No.
IN THE

Supreme Court of tfje ffimteb Stated
NICOLE BARONE,
Petitioner,
v.
WELLS FARGO BANK N.A.,
Respondent.
PETITION FOR A WRIT OF CERTIORARI TO
THE FLORIDA FOURTH DISTRICT COURT OF APPEALS

CERTIFICATE OF SERVICE
I, Nicole Barone hereby certify that three copies of the Petition for a Writ of
Certiorari in the above-captioned case were sent by priority mail on this 26th day of
AUGUST 2020 to the following:
McGuireWoods LLP
Attn: Brittney L. Difato, Kathleen D, Kilbride, Sara F. Holladay-Tobias, Emily Y.
Rottmann
Bank of America Tower
50 North Laura Street, Suite 3300
Jacksonville, FL 32202-3661
Phone- 904-798-3200
Fax- 904-798-3207
Counsel of record for Appellee Wells Fargo Bank N.A.
Shapiro, Fishman & Gache LLP
Attn: Lee A. Watson, Edward J. McDonough
4630 Woodland Corporate Blvd Ste 100, Tampa Florida 33614-2429
Counsel of record for Plaintiff Wells Fargo Bank N.A.
Albertelli Law
PO Box 23028, Tampa, FL, 33623, servealaw@albertellilaw.com
Counsel for Fannie Mae Financial Agent of the United States
1

I further certify that to the best of my knowledge, in accordance with Rule 29
of this Court, all parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.

By:
Nicole Barone
'PO Box 3193
Lighthouse Point, Florida 33074
954-644-9900
Pro Se Petitioner

2

